Squire Patton Boggs (US) LLP
201 E. Fourth St., Suite 1900
Cincinnati, Ohio 45202
+1 513 361 1200
+1 513 361 1201
squirepattonboggs.com
O
F

Lauren S. Kuley
T +1 513 361 1241
lauren.kuley@squirepb.com

August 30, 2019

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, DC 20543
Re: Jammal v. American Family Insurance Company, No. 19-248
Dear Mr. Harris:
The petition for certiorari in the above-captioned case was filed on August 22, 2019, and docketed
on August 26, 2019. The response to the petition is currently due on September 25, 2019.
On behalf of respondents, I request a 30-day extension of time, to and including October 25, 2019,
to respond to the petition. The extension is requested because of previously scheduled deadlines
in other cases. Respondents have not previously sought any extensions in this case.
Respectfully yours,

Lauren S. Kuley

cc:

Brian H. Fletcher
Counsel of record for petitioners

44 Offices in 19 Countries
Squire Patton Boggs (US) LLP is part of the international legal practice Squire Patton Boggs, which operates worldwide through a number of separate
legal entities.
Please visit squirepattonboggs.com for more information.

